              OFFICE OF
       THE INSPECTOR GENERAL

  SOCIAL SECURITY ADMINISTRATION

THE SOCIAL SECURITY ADMINISTRATION’S USE
   OF ADMINISTRATIVE SANCTIONS IN THE
    OLD-AGE, SURVIVORS AND DISABILITY
          INSURANCE PROGRAM

       September 2008   A-07-07-17052




   AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      September 19, 2008                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Use of Administrative Sanctions in the Old-Age,
           Survivors and Disability Insurance Program (A-07-07-17052)


           OBJECTIVE
           Our objective was to determine the extent to which the Social Security Administration
           (SSA) used administrative sanctions as a deterrent to fraud and abuse in the Old-Age,
           Survivors and Disability Insurance (Title II) program.

           BACKGROUND
           In 1950, Congress enacted the Old-Age, Survivors and Disability Insurance program
                                                     1
           under Title II of the Social Security Act. Under the Title II program, monthly benefits
           are paid to retired or disabled workers and their families and to survivors of deceased
           workers. At the end of 2007, almost 50 million individuals were receiving Title II
           benefits. 2

           Amendments to the Social Security Act authorize SSA to suspend benefits as a
           deterrent to fraud and abuse of its programs and operations. 3 Specifically, section 207
           of the Foster Care Independence Act of 1999 amended the Social Security Act to
           authorize SSA, under certain circumstances, to impose administrative sanctions against
           any person who knowingly makes, or causes to be made, fraudulent or misleading
           statements or omissions of material fact for use in determining benefit eligibility or
           amount with a knowing disregard for the truth. 4 Further, section 201 of the Social
           Security Protection Act of 2004 broadened the range of actions that result in an
           administrative sanction to include failure to report an event that is material to eligibility

           1
               The Social Security Act § 201 42 U.S.C. § 401; 20 C.F.R. § 404.1.
           2
             SSA’s, The 2008 Annual Report of the Board of Trustees of the Federal Old-Age and Survivors
           Insurance and Federal Disability Insurance Trust Funds (April 10, 2008).
           3
               SSA, POMS GN 02604.400.A.
           4
               Pub. L. No. 106-169 § 207; The Social Security Act § 1129A; 42 U.S.C. § 1320a-8a.
Page 2 - The Commissioner

or benefit amount if the person knows or should know that failure to report is
            5
misleading. This change was included in SSA’s administrative sanctions policy
effective November 24, 2006. 6
                                                                     7
According to SSA’s administrative sanctions process, individuals who are potentially
sanctionable must be referred to the Office of the Inspector General (OIG) before an
administrative sanction can be imposed. 8 The OIG evaluates the referral and may
investigate and present the case for potential criminal prosecution, civil prosecution or
civil monetary penalties (CMP). 9 If the referral is declined for prosecution or CMP, the
matter is referred back to SSA, and SSA decides whether to impose an administrative
sanction. If SSA imposes a sanction, the individual will not receive benefit payments for
the duration of the sanction period: 6 months for a first occurrence, 12 months for a
second occurrence and 24 months for any subsequent occurrence. 10

From October 2000 through March 2008, SSA imposed 1,557 administrative
          11
sanctions. Of these, 275 were Title II administrative sanctions. Table 1 provides a
                                                              12
breakdown of the Title II administrative sanctions by Region.




5
    Pub. L. No 108-203 § 201; SSA, POMS GN 02604.400.A.
6
 SSA, POMS GN 02604.405; The failure to report must be discovered on or after November 27, 2006
(SSA, POMS GN 02604.405A.1.B).
7
  We use the term “individual” to refer to persons who were receiving Social Security benefits
(beneficiaries) and persons who were potentially sanctionable but were not receiving Social Security
benefits.
8
 The OIG receives allegations of fraud from SSA employees and third parties. Third parties include law
enforcement officials, private citizens, and public agencies.
9
 Under section 1129 of the Social Security Act, the OIG may impose a CMP against certain persons who
make (or cause to be made) false statements or omissions of material facts to SSA. A penalty of up to
$5,000 may be imposed for each false statement or representation. A person subject to a penalty may be
subject, in addition, to an assessment of not more than twice the amount of benefits or payments paid as
a result of such false statement or representation.
10
     SSA, POMS GN 02604.405.D.
11
  During this same period, there were 1,078 Supplemental Security Income sanctions imposed. Further,
there were 204 deferred sanctions that will be imposed at a later date because the sanctionable party was
not receiving benefits at the time the sanction would have been imposed. SSA did not track the amount of
sanctions imposed on any of the cases. We obtained the number of sanctions imposed from SSA’s
Administrative Sanctions Database. According to our discussions with SSA, this database is the sole
repository for recording information on the sanctions imposed by the Agency.
12
     See Appendix B for the scope and methodology of our review.
Page 3 - The Commissioner

                                               Table 1
                                    Title II Sanctions Imposed
                                          by SSA Region 13
                                  Region           Number of Sanctions
                                  Boston                    2
                                 New York                  39
                                Philadelphia                6
                                  Atlanta                  67
                                 Chicago                   60
                                  Dallas                   32
                                Kansas City                38
                                  Denver                    0
                               San Francisco               13
                                  Seattle                  18
                                  TOTAL                   275


RESULTS OF REVIEW

We found that SSA rarely used administrative sanctions as a deterrent to fraud and
abuse in the Title II program. In fact, from October 2000 through March 2008, SSA
imposed only 275 Title II administrative sanctions. The 275 Title II administrative
sanctions imposed in this period appear to be minimal considering that during the same
period, millions of individuals received Title II benefits, SSA incurred billions of dollars in
overpayments and SSA referred thousands of fraud cases to the OIG.

Given the minimal number of administrative sanctions imposed, we attempted to
determine whether SSA had used administrative sanctions to the fullest extent possible.
To accomplish this, we identified two Title II populations of actions taken by individuals
that could have possibly resulted in administrative sanctions.

The first population contained 7,261 Title II cases that SSA referred to the OIG between
October 1, 2004 and June 30, 2007. Ultimately, these cases were not selected for
prosecution or action under the CMP program. Given that these cases were referred to
the OIG with allegations of potential fraud, we would have expected that SSA would
have considered imposing administrative sanctions for a significant number of these
cases that were not selected for CMP action by OIG. However, we were only able to
confirm that 61 of the 7,261 cases were considered for administrative sanctions after
being returned to SSA by OIG. Further, administrative sanctions were only imposed on
individuals for 39 of these cases. For the remaining 7,200 cases, we could not
determine whether SSA considered administrative sanctions.

The second population contained 94,299 Title II overpayments posted to beneficiaries’
Social Security records between December 1, 2006 and September 12, 2007. We
reviewed a select number of these overpayments to determine whether they resulted
13
     The number of sanctions imposed was obtained from SSA’s Administrative Sanctions Database.
Page 4 - The Commissioner

from potentially sanctionable actions and should have been referred to the OIG. Based
on the results of our review of these overpayments, we estimate that at least 38,175 of
the 94,299 overpayments could have been referred to the OIG since the overpayments
occurred because of potentially sanctionable actions. Further, if SSA had referred
these overpayments to the OIG and the referral did not result in prosecution or CMP
action, SSA could have considered administrative sanctions once OIG had referred the
matter back to SSA.

Further, our discussions with SSA’s Regional Sanctions Coordinators (RSC) disclosed
that administrative sanctions were not being used to the fullest extent possible. The
RSCs stated that administrative sanctions were not being used because the process
was time-consuming and cumbersome, SSA staff were not properly trained in the
administrative sanctions process and the sanction timeframes and penalties were too
harsh.

FRAUD REFERRALS TO OIG

The first population we reviewed included 7,261 Title II cases SSA referred to the OIG
between October 1, 2004 and June 30, 2007 that were not selected for prosecution or
CMP action. Typically, once OIG determines a case is not suitable for CMP action, it
then refers the matter back to SSA so SSA may consider imposing administrative
sanctions. We reviewed the 7,261 cases to determine whether SSA considered
administrative sanctions. Of these 7,261 cases, we could only confirm that SSA
considered 61 of the cases for administrative sanctions. Of these 61 cases,
                                                                        14
administrative sanctions were only imposed on individuals for 39 cases.




14
  These 61 cases were recorded in SSA’s Administrative Sanctions Database. According to SSA, this
Database is the sole repository for recording information on administrative sanction cases. Therefore, if a
case is not recorded in the Database, there is no other source for determining whether SSA considered
the case for administrative sanctions.
Page 5 - The Commissioner

For the remaining 7,200 cases, we could not determine whether SSA considered
administrative sanctions. According to SSA, these cases should have been recorded in
the Agency’s Administrative Sanctions Database if administrative sanctions were
considered. However, we found that none of these 7,200 cases were recorded in the
database.

Given that these 7,200 cases were referred to the OIG with allegations of potential
fraud, we would have expected that administrative sanctions would have been
considered on a significant number of these cases that were not selected for CMP
action by OIG. Since SSA did not maintain documentation on how many, if any, of
these cases were considered for administrative sanctions, there was no way for us to
know precisely the percentage of the 7,200 cases where individuals should have had
administrative sanctions imposed. However, we do know that individuals had
administrative sanctions imposed for 45 percent of the cases SSA documented as
                                                                        15
being considered for sanctions from October 2000 through March 2008. Therefore, if
SSA had pursued administrative sanctions on 45 percent of the 7,200 cases,
individuals could have had sanctions imposed totaling approximately $17.6 million. 16

If SSA considered any of these 7,200 cases for administrative sanctions, they were not
recorded in the Administrative Sanctions Database. We believe all potential
administrative sanctions cases should be recorded in the Administrative Sanctions
Database so SSA management can evaluate periodically whether its employees are
considering administrative sanctions appropriately and to the fullest extent possible.

BENEFICIARY OVERPAYMENTS

The second population we reviewed included 94,299 Title II overpayments posted to
beneficiaries’ Social Security records between December 1, 2006 and September 12,




15
   For the period October 2000 through March 2008, SSA recorded 3,456 cases in the Administrative
Sanctions Database. Of these cases, administrative sanctions were imposed on individuals for
1,557 cases. Therefore, SSA imposed administrative sanctions on 45 percent of the cases recorded in
the Database (1,557 ÷ 3,456). Accordingly, we assume that, since 45 percent of the cases in the
database had sanctions imposed, 45 percent of the associated dollars should be sanctionable as well. As
a result, we used 45 percent to calculate the potential administrative sanction amounts presented in this
audit report. See Appendix D, Table 1.
16
     See Appendix D, Table 2.
Page 6 - The Commissioner

2007. 17, 18 For our review, these 94,299 overpayments were separated into 2 groups—
those not involving the annual retirement test and those involving the annual retirement
test 19—as shown in Table 2.

                                                  Table 2
                                 TITLE II OVERPAYMENT POPULATION
                                                 Number of                 Total
                    Type of Overpayment
                                                Overpayments           Overpayments
                   Non-Annual Retirement             61,503            $1,111,250,407
                   Annual Retirement                 32,796               316,206,846
                   Totals                            94,299            $1,427,457,253

As discussed below, we reviewed a select number of overpayments from each of the
two types of overpayments identified in Table 2 to determine the number of these
overpayments that resulted from a potentially sanctionable action by an individual. We
also determined whether these overpayments were referred to OIG for investigation
and CMP determination and subsequently considered by SSA for administrative
sanctions.

Non-Annual Retirement Test Overpayments

Of the 94,299 overpayments, there were 61,503 overpayments not related to the
annual retirement test. Overpayments not related to the annual retirement test are due
to such events as failure to report work activity while receiving disability benefits;
changes in eligibility for benefits due to marriage, divorce or annulment; or ineligibility of
benefits due to incarceration of the beneficiary. Of these 61,503 overpayments, we
found




17
  We selected this period to coincide with the most recent date of changes in SSA’s Administrative
Sanctions policy, dated November 27, 2006.
18
  These overpayments had a value of $5,500 or greater. We selected overpayments with a value of
$5,500 or greater so as to review only overpayments with a value that exceeded the benefit payments
associated with the first time administrative sanction offense of 6 months. To derive the $5,500, we
identified the Fiscal Year 2006 median monthly Title II benefit rate for disabled workers of $905.70 times 6
which represents the 6-month timeframe for a first time sanction offense ($905.70 x 6 = $5,434.20). We
used the disabled workers’ median monthly benefit amount because it was the lowest of the three types of
payments (Retired Workers, Survivors and Disabled Workers) made under the Title II program.
19
  When an individual under full retirement age receives retirement benefits and also has earnings that
exceed a certain level, SSA withholds an amount of their benefits based on the amount the individual
earned. SSA refers to this process as the annual retirement test. Overpayments not related to the annual
retirement test are due to such events as failure to report work activity while receiving disability benefits;
changes in eligibility for benefits due to marriage, divorce or annulment; or ineligibility of benefits due to
incarceration of the beneficiary.
Page 7 - The Commissioner

      •   61,450 overpayments had amounts between $5,500 and $199,999, and

      •   53 overpayments had amounts of $200,000 and greater.

We reviewed a random sample of 250 of the 61,450 overpayments with amounts
between $5,500 and $199,999. We found that 176 (70 percent) of the
250 overpayments met SSA’s criteria for referral to the OIG because individuals failed
to report material information to SSA (163), made a false or misleading statement (11)
or omitted a material fact (2). 20 Of these 176 overpayments, 21 were referred to OIG
and 155 were not. 21

Because 155 of the 250 overpayments we reviewed were not appropriately referred to
OIG for investigation, we estimate that at least 38,099 of the 61,450 overpayments
could have been referred to the OIG for investigation and CMP consideration. 22 If
these overpayments were referred to the OIG and the referral did not result in
prosecution or CMP, SSA could have considered administrative sanctions. If SSA had
pursued administrative sanctions on 45 percent of the 38,099 overpayments,
                                                                       23
individuals could have had sanctions imposed totaling $105,614,985.

As previously stated, there were also 53 overpayments not related to the annual
retirement test with amounts of $200,000 and greater. We found that 25 (47 percent)
                                                                             24
of the 53 overpayments could have been referred to the OIG for investigation. Of


20
  We determined that 74 of the 250 overpayments were not sanctionable because (1) the beneficiary was
not at fault for causing the overpayment (26); (2) the event that caused the overpayment was discovered
before the November 27, 2006 law change that allowed sanctions due to failure to report (19); (3) the
sanctionable party had not ever received benefits (9); (4) the overpayment was waived (7); (5) the
beneficiary was deceased (6); (6) no information was available about the event that caused the
overpayment (3); (7) the sanctionable party would have been an organizational payee for which
administrative sanctions would not apply (2); (8) the sanctionable party was deceased (1); and
(9) the overpayment was determined to be invalid (1).
21
   These 21 overpayments were referred to the OIG for fraud investigation. However, as of
May 30, 2008, these overpayments were not recorded in the Administrative Sanctions Database. Since
this Database is SSA’s sole repository for recording administrative sanctions, we could not determine
whether these 21 overpayments were considered for administrative sanctions.
22
     See Appendix C, Table 1.
23
     See Appendix D, Table 3.
24
  We determined that 28 of the 53 overpayments were not sanctionable because (1) the event that
caused the overpayment was discovered before the November 27, 2006 law change which allowed
sanctions due to failure to report (8); (2) the overpayment resulted in prosecution (6); (3) the beneficiary
was found to be not at fault for causing the overpayment (4); (4) the beneficiary was deceased (4); (5) an
incorrect overpayment amount was posted and corrected to a minimal amount and would most likely not
be considered for sanctions (3); (6) no information was available about the event that caused the
overpayment (2); and (7) the overpayment occurred prior to the Social Security amendments that allowed
administrative sanctions to be imposed (1).
Page 8 - The Commissioner

these 25 overpayments, 3 were referred to the OIG for investigation. 25 The remaining
22 overpayments could have been referred because individuals failed to report material
information. If these 22 overpayments were referred to OIG and the referral did not
result in prosecution or CMP, SSA could have considered administrative sanctions. If
SSA had pursued administrative sanctions on 45 percent of these 22 overpayments,
individuals could have had sanctions imposed totaling $54,508. 26

Annual Retirement Test Overpayments

When an individual under full retirement age receives retirement benefits and also has
earnings that exceed a certain level, SSA withholds an amount of their benefits based
on the amount the individual earned. 27, 28 SSA refers to this process as the annual
retirement test. 29 Specifically, if beneficiaries are working and also receiving retirement
benefits under full retirement age, SSA requires that they estimate their earnings for the
year. 30 SSA also requires that the beneficiary report any material changes in work
activity. 31 SSA needs the most accurate earnings information possible to avoid
underpayments and/or overpayments to the beneficiary.

Of the 94,299 overpayments, we identified 32,796 overpayments related to the annual
retirement test. The overpayments occurred because beneficiaries underestimated
their earnings. Of these overpayments, we found

       •   32,787 overpayments had amounts between $5,500 and $49,999, and

       •   9 overpayments had amounts of $50,000 and greater.

We reviewed a random sample of 50 of the 32,787 overpayments between $5,500 and
$49,999. None of these overpayments were referred to the OIG for investigation.



25
   These three overpayments were referred to the OIG for fraud investigation. However, as of
May 30, 2008, these overpayments were not recorded in the Administrative Sanctions Database. Since
this Database is SSA’s sole repository for recording administrative sanctions, we could not determine
whether these three overpayments were considered for administrative sanctions.
26
     See Appendix D, Table 4.
27
  SSA deducts $1 from benefits for each $2 earnings over the annual exempt amount. In 2006, 2007 and
2008, the exempt amounts were $12,480, 12,960 and $13,560, respectively.
28
     SSA, POMS RS 02501.021.
29
  The Annual Retirement Test is also referred to as the Annual Earnings Test and also applies to
individuals receiving survivors’ benefits (see SSA Handbook §1801.2).
30
     SSA, POMS RS 02501.105.
31
     SSA, POMS RS 02501.005.
Page 9 - The Commissioner

However, we found that 48 (96 percent) of the 50 overpayments could have been
                                                                               32
referred to the OIG because individuals failed to report material information.

Specifically, the individuals substantially underestimated their earnings. For example,
one individual in our sample was overpaid approximately $20,600 because he did not
initially provide SSA with an accurate estimate of his potential annual earnings.
Further, the individual did not follow SSA policy and report during the year that his work
activity resulted in eight times more income than he estimated to SSA.

If these 48 overpayments were referred to OIG and the referral did not result in
prosecution or CMP, SSA could have considered administrative sanctions. If SSA had
pursued administrative sanctions on 45 percent of these 48 overpayments, individuals
could have had sanctions imposed totaling $159,003. 33

As previously stated, there were also nine overpayments related to the annual
retirement test with amounts of $50,000 and greater. None of these overpayments
were referred to the OIG. However, we found that six (67 percent) of the nine
                                                     34
overpayments could have been referred to the OIG. These overpayments could have
been referred because the individuals failed to report material information (5) or made a
false or misleading statement (1). If these six overpayments were referred to OIG and
the referral did not result in prosecution or CMP, SSA could have considered
administrative sanctions. If SSA had pursued administrative sanctions on 45 percent of
these six overpayments, individuals could have had sanctions imposed totaling
$23,580. 35

Summary of Beneficiary Overpayments

In summary, we determined that at least 38,175 of the 94,299 overpayments in our
population could have been referred to the OIG since they occurred because of




32
  We determined that 2 of the 50 overpayments were not sanctionable because the beneficiary was not at
fault for causing the overpayment.
33
     See Appendix D, Table 5.
34
  We determined that three of the nine overpayments were not sanctionable because the beneficiary was
prosecuted (1), the beneficiary was not at fault for causing the overpayment (1), or the beneficiary was
deceased (1).
35
     See Appendix D, Table 6.
Page 10 - The Commissioner

potentially sanctionable actions. 36 Even if OIG had not pursued CMP action in these
cases, OIG would likely have referred these cases back to SSA for consideration of
administrative sanctions. If SSA had pursued administrative sanctions on 45 percent of
the 38,175 overpayments, individuals could have had sanctions imposed totaling
approximately $105.8 million. SSA should evaluate the current administrative sanctions
process and initiate necessary changes to ensure that all potential administrative
sanctions are identified and proactively considered. In doing so, SSA may want to
implement a risk-based approach that focuses on sanctionable actions that result in
significant overpayments. In addition, SSA should remind staff to refer to the OIG as
appropriate, overpayments that occur due to sanctionable events such as an individual
failing to report material information, making a false or misleading statement, or omitting
a material fact.

INFORMATION OBTAINED FROM RSCs

We interviewed the RSC in each of SSA’s 10 regional offices to obtain information
related to the administrative sanctions process. Based on these interviews, we found
that 8 of the 10 RSCs believed that administrative sanctions were not being used to
their fullest extent. The RSCs gave the following potential reasons for administrative
sanctions not being used:

     •   the workload is time-consuming and cumbersome,

     •   SSA staff were not properly trained in the administrative sanctions process, and

     •   sanction timeframes and penalties were too harsh. 37
Regarding the harshness of the administrative sanctions timeframes and penalties, the
RSCs provided the following suggestions.

     •   Shorten the sanction timeframe for a first offense to less than the minimum
         6 months of benefit suspension.

     •   Align the sanction timeframe with the offense based on the overpayment
         amount.

     •   Change the sanction penalty to a percentage of monthly benefit suspension
         instead of a 100 percent suspension of monthly benefits.

36
  See Appendix D, Table 7. Also, as shown in Table 2 on page 6 of this report, the annual retirement test
population accounted for 32,787 of the 94,299 overpayments. For the annual retirement test population,
we did not review the number of overpayments needed for statistical projections as we did for the non-
annual retirement test population of 61,503. Therefore, we reported actual results for the overpayments
we reviewed in the annual retirement test population. Since we did not project to this population, our
estimate that 38,175 of the 94,299 overpayments should have been referred to OIG is most likely
understated.
37
  Administrative sanction timeframes and penalties are outlined in Pub. L. No. 106-169 § 207, 42 U.S.C. §
1320a-8a. Therefore, changes to the sanction timeframes and penalties would require legislation.
Page 11 - The Commissioner

The RSCs also expressed concerns with the Administrative Sanctions Database not
being user-friendly. For example, as many as 60 inputs are required to enter the
information for each administrative sanction, which makes the process tedious and
time-consuming for SSA staff. Given this time-consuming process, it is possible that
SSA staff, along with their other workloads may not have sufficient time to actively
pursue all potential administrative sanctions. SSA should determine whether the
Administrative Sanctions Database could be streamlined so potential sanctions are
easier to input, thereby making the administrative sanctions process less
time-consuming for staff but effective for the purposes intended. Further, SSA should
ensure that staff are properly trained in the administrative sanctions process.

CONCLUSION AND RECOMMENDATIONS
Although Congress authorized administrative sanctions as a deterrent to fraud and
abuse of SSA’s programs and operations, we found that administrative sanctions are
rarely imposed. In fact, SSA imposed only 275 Title II administrative sanctions from
October 2000 through March 2008. Our review disclosed that administrative sanctions
were not used to the fullest extent possible because SSA did not identify all potential
sanctions. And, for the potential sanctions SSA identified, only a minimal number of
administrative sanctions were actually imposed.

To ensure administrative sanctions are being used to the fullest extent, we recommend
SSA:

1. Record all potential administrative sanctions in the Administrative Sanctions
   Database so SSA management can periodically determine whether the Agency’s
   employees are considering administrative sanctions appropriately and to the fullest
   extent possible.

2. Evaluate the current administrative sanctions process and implement necessary
   changes to ensure that all potential administrative sanctions are identified and
   proactively considered. In doing so, SSA may want to implement a risk-based
   approach that focuses on sanctionable actions that result in significant
   overpayments.

3. Remind staff to refer to the OIG as appropriate, overpayments that occur due to
   sanctionable events such as an individual failing to report material information,
   making a false or misleading statement, or omitting a material fact. This should
   include reminding staff that, if OIG determines CMP action is not appropriate, the
   case may be referred back to SSA for consideration of administrative sanctions.

4. Determine whether the current sanction timeframes and penalties are appropriate
   considering the concerns expressed by the RSCs. If SSA determines that changes
   are needed, take necessary actions to initiate appropriate legislation.
Page 12 - The Commissioner

5. Streamline the Administrative Sanctions Database so potential sanctions are less
   time-consuming to input by staff and ensure that staff are properly trained in the
   administrative sanctions process.

AGENCY COMMENTS
SSA agreed with all our recommendations. See Appendix E for the full text of SSA’s
comments.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Report Calculations

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
C.F.R.     Code of Federal Regulations
CMP        Civil Monetary Penalty
NICMS      National Investigative Case Management System
OCIG       Office of the Counsel to the Inspector General
OI         Office of Investigations
OIG        Office of the Inspector General
POMS       Program Operations Manual System
Pub. L.    Public Law
RSC        Regional Administrative Sanctions Coordinator
SSA        Social Security Administration
Title II   Old-Age, Survivors and Disability Insurance
U.S.C.     United States Code
                                                                         Appendix B

Scope and Methodology
To accomplish our audit objectives, we:

•     Reviewed sections of the Social Security Act and the Social Security
      Administration’s (SSA) regulations, rules, policies, procedures, and other legislation
      pertaining to the administrative sanctions process.

•     Interviewed the Regional Administrative Sanctions Coordinator in each of SSA’s
      10 regions on the administrative sanctions process.

•     Interviewed staff from SSA's Offices of the Inspector General (OIG), Investigations
      (OI), and Council to the Inspector General (OCIG) to obtain an understanding of OI
      and OCIG's role in the administrative sanctions process.

•     Obtained a file containing 94,299 overpayments totaling approximately $1.4 billion
      that were posted to beneficiaries’ Social Security records between
                                                   1
      December 1, 2006 and September 12, 2007. From this file, we:

           Selected a random sample of 250 overpayments with amounts between
            $5,500 and $199,999 where the type of overpayment event was not the
            annual retirement test.
           Reviewed 53 overpayments with amounts of $200,000 and greater where the
            type of overpayment event was not the annual retirement test.
           Selected a random sample of 50 overpayments with amounts between
            $5,500 and $49,999 where the type of overpayment event was the annual
            retirement test.
           Reviewed nine overpayments with amounts of $50,000 and greater where the
            type of overpayment event was the annual retirement test.

•     Obtained a file from SSA’s Administrative Sanctions Database that contained
      1,041 cases from October 1, 2004 through June 30, 2007. In addition, we obtained
      a file from OIG's National Investigative Case Management System (NICMS) that
      contained 7,261 Old-Age, Survivors and Disability Insurance cases between
      October 1, 2004 and June 30, 2007. These cases were declined for prosecution
      and did not have civil monetary penalties imposed. We compared these files to
      determine whether the cases in NICMS had administrative sanctions imposed.




1
    See Appendix C for our population and sample results.


                                                    B-1
•   Obtained a summary report of the Administrative Sanctions Database from
    October 2000 through March 2008. From this report, we determined the total
    number of cases in the Database and the number of administrative sanctions
    imposed on these cases.

•   Reviewed SSA’s Administrative Sanctions Database and OIG’s NICMS to determine
    whether the overpayments we reviewed were referred to the OIG and had
    administrative sanctions imposed.

We conducted our audit in Kansas City, Missouri, from March through May 2008. We
determined the data used for this audit were sufficiently reliable to meet our objective.
The organizational component responsible for the oversight of administrative sanctions
is the Office of Public Service and Operations Support. We conducted our audit in
accordance with generally accepted government auditing standards.




                                           B-2
                                                                                    Appendix C

Sampling Methodology and Results
We identified a population of 94,299 Old-Age, Survivors and Disability Insurance (Title II)
overpayments with amounts of $5,500 or greater totaling approximately $1.4 billion. 1
These overpayments were separated into two groups—those not involving the annual
retirement test and those involving the annual retirement test. We only made statistical
projections for the non-annual retirement test overpayments. Specifically, we identified
61,503 overpayments totaling approximately $1.1 billion that did not involve the annual
retirement test.

Of these overpayments, 61,450 had overpayments between $5,500 and $199,999. We
reviewed a random sample of 250 of the 61,450 overpayments. We found that
176 (70 percent) of the 250 overpayments met the Social Security Administration’s
(SSA) criteria for referral to the Office of the Inspector General (OIG) since they
occurred because individuals failed to report material information to SSA
(163 overpayments), made a false or misleading statement (11 overpayments) or
omitted a material fact (2 overpayments). Of these 176 overpayments, 21 were
                                     2
referred to OIG and 155 were not.

Based on the fact that 155 of the 250 overpayments we reviewed were not
appropriately referred to OIG for investigation, we estimate that at least 38,099 of the
61,450 overpayments should have been referred to the OIG for investigation and civil
monetary penalty (CMP) consideration. Based on our sample results, 38,099 of the
61,450 overpayments (62 percent) could have been considered for potential
                                           3
administrative sanctions of $234,699,967. See Table 1.




1
 These overpayments had a value of $5,500 or greater. We selected overpayments with a value of
$5,500 or greater because this amount is approximately the Fiscal Year 2006 median monthly Title II
benefit rate for disabled workers of $905.70 applied to the 6-month timeframe for a first time sanction
offense: ($905.70 x 6 months=$5,434). We used the disabled workers’ median monthly benefit amount
because it was lowest median monthly payment for the Title II program.
2
  These 21 overpayments were referred to the OIG for fraud investigation. However, as of May 30, 2008,
these overpayments were not recorded in the Administrative Sanctions Database. Since this Database is
SSA’s sole repository for recording administrative sanctions, we could not determine whether these
21 overpayments were considered for administrative sanctions.
3
 Projections were calculated at the 90-percent confidence level. Before considering administrative
sanctions on these overpayments, they would have been referred to OIG. If the referral did not result in
prosecution or CMP, OIG would either close the case or refer the case back to SSA for consideration of
administrative sanctions. This referral e-mail to SSA is automatically generated and is sent to the
administrative sanctions coordinators in both Headquarters and field office locations.


                                                   C-1
                                              Table 1
                                 Potential Administrative Sanctions
                                    Population and Sample Size
                                                                     Total
                  Population Size                                       61,450
                  Sample Size                                              250
                        Number of Potentially Sanctionable Overpayments
                  Number of Potentially Sanctionable
                                                                           155
                  Overpayments Identified in the Sample
                  Projected Number of Potentially Sanctionable
                                                                        38,099
                  Overpayments in the Population
                  Projection Lower Limit                                34,826
                  Projection Upper Limit                                41,240
                                    Potential Sanction Amounts
                  Total Potential Sanctions for the
                                                                   $954,841.20
                  155 Overpayments 4
                  Projected Amount of Potential Sanctions for the
                                                                  $234,699,967
                  38,099 Overpayments
                  Projection Lower Limit                          $211,607,384
                  Projection Upper Limit                          $257,792,550

If these overpayments were referred to the OIG and the referral did not result in
prosecution or CMP, SSA could have considered administrative sanctions. If SSA had
pursued administrative sanctions on 45 percent of the 38,099 overpayments,
individuals could have had sanctions imposed totaling $105,614,985. 5




4
  To calculate the $954,841.20, we identified the monthly benefit amount payable to each of the individuals
associated with the 155 sanctionable overpayments when the overpayment was posted. We then took
that benefit amount for each of the individuals and multiplied it by 6 based on the first time sanction period
of 6 months.
5
    See Appendix D, Table 3.


                                                     C-2
                                                                                 Appendix D

Report Calculations
Development of Administrative Sanctions Percentage

From October 2000 through March 2008, the Social Security Administration (SSA)
recorded 3,456 cases in the Administrative Sanctions Database. Of these cases,
administrative sanctions were imposed on individuals for 1,557 cases. Therefore, SSA
imposed administrative sanctions on 45 percent of the cases recorded in the Database.
Accordingly, we assume that, since 45 percent of the cases in the database had
sanctions imposed, 45 percent of the associated dollars should be sanctionable as well.
As a result, we used 45 percent to calculate the potential administrative sanction
amounts presented in this audit report.

                                             Table 1
                         Percentage Used to Calculate Potential Sanctions
                   Total Number of Administrative Sanctions Imposed           1,557
                   Total Number of Cases Recorded in SSA’s
                   Administrative Sanctions Database from October 2000        3,456
                   through March 2008
                   Percentage of Sanctions Imposed                               45


Fraud Referrals
If SSA had pursued administrative sanctions on 45 percent of the 7,200 cases that were
referred to the Office of the Inspector General for investigation, individuals could have
had sanctions imposed totaling $17,606,808.

                                              Table 2
                      Potential Administrative Sanctions for Fraud Referrals
                             Number of Potentially Sanctionable Cases
                   Population Size                                         7,200
                   Percentage of Sanctions Imposed                              45%
                   Number of Potentially Sanctionable Cases                    3,240
                                         Sanctionable Amount
                   Number of Potentially Sanctionable Cases                   3,240
                                                   1
                   6 Months of Sanctioned Benefits                        $5,434.20
                   Total Potential Sanctions                            $17,606,808


1
  The sanctioned benefit amount was derived by taking the Fiscal Year 2006 median monthly Old-Age,
Survivors and Disability Insurance benefit rate for disabled workers of $905.70 multiplied by 6 which
represents the 6-month timeframe for a first time sanction offense ($905.70 x 6 = $5,434.20). We used
the disabled workers’ median monthly benefit amount because it was the lowest of the three types of
payments (Retired Workers, Survivors and Disabled Workers) made under the Title II program.


                                                  D-1
Non-Annual Retirement Test Overpayments

If SSA had pursued administrative sanctions on 45 percent of the 38,099 non-annual
retirement test overpayments between $5,500 and $199,999, individuals could have
                                             2
had sanctions imposed totaling $105,614,985.

                                                    Table 3
                               Non-Annual Retirement Test Overpayments with
                                Overpayments Between $5,500 and $199,999
                             Number of Potentially Sanctionable Overpayments
                         Population Size                                   61,450
                         Projected Number of Potentially
                                                                           38,099
                         Sanctionable Overpayments
                                             Sanctionable Amount
                         Total Potential Sanctions                   $234,699,967
                         Percentage to be Sanctioned                         45%
                         Total Potential Sanctions                   $105,614,985

If SSA had pursued administrative sanctions on 45 percent of the 22 non-annual
retirement test overpayments of $200,000 and greater, individuals could have had
sanctions imposed totaling $54,508.

                                                     Table 4
                              Non-Annual Retirement Test Overpayments with
                                   Overpayments of $200,000 and Greater
                             Number of Potentially Sanctionable Overpayments
                         Population Size                                      53
                         Number of Potentially Sanctionable
                                                                              22
                         Overpayments
                                             Sanctionable Amount
                                                   3
                         Total Potential Sanctions                      $121,128
                         Percentage to be Sanctioned                        45%
                         Total Potential Sanctions                       $54,508




2
    See Appendix C for a detailed explanation of this statistical calculation.
3
  To calculate the $121,128, we identified the monthly benefit amount payable to each of the individuals
associated with the 22 sanctionable overpayments at the time the overpayment was posted. We then
took that benefit amount for each of the individuals and multiplied it by 6 based on the first time sanction
period of 6 months.


                                                        D-2
Annual Retirement Test Overpayments

If SSA had pursued administrative sanctions on 45 percent of the 48 annual retirement
test overpayments between $5,500 and $49,999, beneficiaries could have had
sanctions imposed totaling $159,003.

                                                 Table 5
                     Annual Retirement Test Overpayments with Overpayments
                                      Between $5,500 and $49,999
                          Number of Potentially Sanctionable Overpayments
                 Population Size                                           32,787
                 Sample Size                                                   50
                 Number of Potentially Sanctionable Overpayments               48
                                          Sanctionable Amount
                                           4
                 Total Potential Sanctions                               $353,339
                 Percentage to be Sanctioned                                 45%
                 Total Potential Sanctions                               $159,003

If SSA had pursued administrative sanctions on 45 percent of the six annual retirement
test overpayments of $50,000 and greater, individuals could have had sanctions
imposed totaling $23,580.

                                                  Table 6
                    Annual Retirement Test Overpayments with Overpayments of
                                            $50,000 and Greater
                          Number of Potentially Sanctionable Overpayments
                 Population Size                                                9
                 Number of Potentially Sanctionable Overpayments                6
                                          Sanctionable Amount
                                           5
                 Total Potential Sanctions                                $52,400
                 Percentage to be Sanctioned                                 45%
                 Total Potential Sanctions                                $23,580




4
  To calculate the $353,339, we identified the monthly benefit amount payable to each of the individuals
associated with the 48 sanctionable overpayments at the time the overpayment was posted. We then
took that benefit amount for each of the individuals and multiplied it by 6 based on the first time sanction
period of 6 months.
5
  To calculate the $52,400, we identified the monthly benefit amount payable to each of the individuals
associated with the six sanctionable overpayments at the time the overpayment was posted. We then
took that benefit amount for each of the individuals and multiplied it by 6 based on the first time sanction
period of 6 months.


                                                     D-3
Summary of Estimates

If SSA had pursued administrative sanctions on 45 percent of the 38,175 overpayments
identified in our review as potentially sanctionable, individuals could have had sanctions
imposed totaling $105,852,076.

                                              Table 7
                                     Total Potential Sanctions
                                                      Potentially          Potential
                                        Total
                    Source                           Sanctionable          Sanction
                                    Overpayments
                                                     Overpayments          Amount
              Appendix D, Table 3           61,450            38,099       $105,614,985
              Appendix D, Table 4               53                22             54,508
                                                                    6
              Appendix D, Table 5           32,787               48             159,003
              Appendix D, Table 6                9                 6             23,580
                           Totals           94,299            38,175       $105,852,076




6
  For the population of 32,787, we are reporting the actual results for the 50 randomly selected
overpayments we reviewed and no projection is provided. Since we determined 96 percent (48 of 50) of
the overpayments reviewed were potentially sanctionable, we believe a majority of the 32,787 may be
potentially sanctionable as well.


                                                 D-4
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      September 11, 2008                                                    Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration’s Use
           of Administrative Sanctions in the Old-Age, Survivors and Disability Program            (A-07-
           07-17052)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Attached is our response to the
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                         E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S USE OF
ADMINISTRATIVE SANCTIONS IN THE OLD-AGE, SURVIVORS AND DISABILITY
INSURANCE PROGRAM” (A-07-07-17052)

Thank you for the opportunity to review and provide comments on this draft report.

Recommendation 1

Record all potential administrative sanctions in the Administrative Sanctions Database so
management can periodically determine whether employees are considering administrative
sanctions appropriately and to the fullest extent possible.

Comment

We agree. We will lead an intercomponent workgroup to evaluate the current administrative
sanctions process. The Administrative Sanctions Database captures identification data, dates of
events, and yes or no responses, but does not allow for narrative remarks. Our database
capabilities would have to be expanded to allow for data to be recorded on individual cases
regarding whether or not to impose sanctions. We will explore systems options for recording all
potential administrative sanctions in the Administrative Sanctions Database.

Recommendation 2

Evaluate the current administrative sanctions process and implement necessary changes to ensure
that all potential administrative sanctions are identified and proactively considered. In doing so,
consider implementing a risk-based approach that focuses on sanctionable actions that result in
significant overpayments.

Comment

We agree. As stated in the response to recommendation 1 above, we will lead an intercomponent
workgroup to evaluate the current administrative sanctions process. We will explore evaluation
procedures that reflect a risk-based approach in identifying potential administrative sanctions.

Recommendation 3

Remind staff to refer to OIG as appropriate, overpayments that occur due to sanctionable events
such as an individual failing to report material information, making a false or misleading
statement, or omitting a material fact. This should include reminding staff that, if OIG
determines civil monetary penalty action is not appropriate, the case may be referred back for
consideration of administrative sanctions.




                                                E-2
Comment

We agree. We will issue an administrative message as a reminder to employees to ensure that
administrative sanctions are being applied appropriately.

Recommendation 4

Determine whether the current sanction timeframes and penalties are appropriate considering the
concerns expressed by the Regional Administrative Sanctions Coordinators. If SSA determines
that changes are needed, take necessary actions to initiate appropriate legislation.

Comment

We agree. We will determine whether the current sanction timeframes and penalties are
appropriate. If we determine that changes are needed, we will take necessary actions to initiate
appropriate legislation.

Recommendation 5

Streamline the Administrative Sanctions Database so potential sanctions are less time-consuming
to input by staff and ensure that staff is properly trained in the administrative sanctions process.

Comment

We agree. The current database and input process is cumbersome and difficult to navigate, it
should be redesigned to be more user-friendly. The workgroup will also consider ways to
streamline the Administrative Sanctions Database.




                                                E-3
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division (816) 936-5591

   Ronald Bussell, Audit Manager (816) 936-5577

Acknowledgments

In addition to those named above:

   Katherine Wunsch, Auditor

   Kenneth Bennett, IT Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-07-07-17052.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
